TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      The Federal Student Aid Datashare
                    Application Was Successfully Deployed,
                         but Improvements in Systems
                     Development Disciplines Are Needed



                                       September 3, 2010

                              Reference Number: 2010-20-099




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


THE FEDERAL STUDENT AID                               application and tested prior to deployment of the
DATASHARE APPLICATION WAS                             application.
SUCCESSFULLY DEPLOYED, BUT                            While the application was successfully deployed,
IMPROVEMENTS IN SYSTEMS                               some system development processes needed
DEVELOPMENT DISCIPLINES ARE                           improvement. The IRS took actions on many of
NEEDED                                                our recommendations and observations during
                                                      the course of our audit, and addressed the
                                                      concerns TIGTA identified. However, some
Highlights                                            actions had not been completed or developed by
                                                      the time our review concluded. Specifically,
Final Report issued on September 3,                   controls over requirements management need
2010                                                  strengthening to ensure test cases and
                                                      requirement documents are fully developed; test
Highlights of Reference Number: 2010-20-099           results should be documented timely and
to the Internal Revenue Service Chief                 consistently and in a manner that minimizes the
Technology Officer.                                   potential for manipulation; and project team
                                                      meetings should be documented to ensure
IMPACT ON TAXPAYERS                                   significant decisions and followup action items
                                                      are tracked and timely completed.
The Federal Student Aid Datashare application
provides a web-based method for taxpayers to          WHAT TIGTA RECOMMENDED
complete the Department of Education’s Free
Application for Federal Student Aid. Instead of       TIGTA recommended that the Chief Technology
manually entering their tax return information on     Officer ensure that the Systems Acceptability
the application form, taxpayers can now               Test team 1) uses consistent, documented
automatically transfer their tax return data to the   processes to generate a requirements
application form.                                     traceability matrix linking each requirement to a
                                                      test case and 2) revises the applicable Internal
WHY TIGTA DID THE AUDIT                               Revenue Manual to require that test results be
                                                      recorded, documented, and verified consistently
This audit was initiated at the request of the        during test execution.
Associate Chief Information Officer for
Applications Development. The Internal                In their response to the report, IRS officials
Revenue Service (IRS) implemented the project         agreed to TIGTA’s recommendations. IRS
to assist the Department of Education initiative      management plans to revise the Internal
to simplify the Federal student aid application       Revenue Manual Part 2.6.1 to add hyperlinks in
process. Our objective was to determine               the Requirements Traceability Verification Matrix
whether the IRS followed the Enterprise Life          that connect directly to the associated test cases
Cycle in developing the project within the            and update the Test Results Section to require
established time period and ensuring adequate         consistent recording, documentation, and
security was put in place to protect taxpayer         verification of test results.
information.
WHAT TIGTA FOUND
The IRS successfully developed and deployed
the Federal Student Aid Datashare application
on January 28, 2010. As of May 2010, more
than 264,750 taxpayers had used the application
to automatically transfer their tax return
information to the Federal student aid
application form. Security controls to safeguard
taxpayer information were built into the
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 3, 2010


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Federal Student Aid Datashare Application
                             Was Successfully Deployed, but Improvements in Systems
                             Development Disciplines Are Needed (Audit # 200920031)

 This report presents the result of our review of the development of the Federal Student Aid
 Datashare project. The overall objective of this review was to determine whether the Internal
 Revenue Service (IRS) followed the Enterprise Life Cycle to develop the Federal Student Aid
 Datashare project within the established time period and to ensure adequate security was in place
 to protect taxpayer information. The audit was requested by the Associate Chief Information
 Officer for Applications Development and addresses the major management challenge of
 Modernization of the IRS.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-5894.
                                    The Federal Student Aid Datashare Application
                                   Was Successfully Deployed, but Improvements in
                                    Systems Development Disciplines Are Needed




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Federal Student Aid Datashare Application Was Successfully
          Developed and Deployed..............................................................................Page 3
          Improvements Are Needed in Several Systems Development
          Disciplines.....................................................................................................Page 4
                    Recommendation 1:..........................................................Page 7

                    Recommendation 2:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measure ................................................................Page 15
          Appendix V – Glossary of Terms .................................................................Page 16
          Appendix VI – Management’s Response to the Draft Report ......................Page 18
         The Federal Student Aid Datashare Application
        Was Successfully Deployed, but Improvements in
         Systems Development Disciplines Are Needed




                Abbreviations

DocIT       Document Management for Information Technology
ELC         Enterprise Life Cycle
FSA-D       Federal Student Aid Datashare
IRS         Internal Revenue Service
SAT         Systems Acceptability Test
                                  The Federal Student Aid Datashare Application
                                 Was Successfully Deployed, but Improvements in
                                  Systems Development Disciplines Are Needed




                                                 Background

The Internal Revenue Service (IRS) developed the
Federal Student Aid Datashare (FSA-D) project to                              The FSA-D system streamlines
support the Department of Education initiative to                                  the Federal student aid
                                                                                application process, making
simplify the Federal student aid application process.                          it more efficient for hundreds
The Department of Education requested that the IRS                               of thousands of taxpayers
develop the FSA-D project prior to the next application                             to acquire the required
period, which began in January 2010, and funded the                                tax return information.
development costs of approximately $4.5 million.
The FSA-D is a web-based application designed to provide applicants 1 with their filed tax return
information while they are accessing the Department of Education web site 2 to complete the
Free Application for Federal Student Aid. While online, the applicants can retrieve information
from their tax returns and have the option to automatically transfer the required tax return data to
their application for Federal student aid. Prior to the deployment of the FSA-D, applicants were
required to manually input their tax data using the hardcopy of their tax returns. The FSA-D
streamlines the process and makes it more efficient for hundreds of thousands of users to acquire
the required tax return information.
The FSA-D application functions via an IRS Internet link, which is available on the Department
of Education web site. This link is the only way an applicant can directly access their filed tax
return data required to complete the application form. The applicant must adhere to verification
features in order to gain access to the IRS Internet link and tax return data. The applicant
accomplishes this access by creating a personal identification number and inputting requested
personal information on the Department of Education web site. The information that must be
input includes, but is not limited to, the applicant’s first and last name, Social Security Number,
and date of birth.
Once the personal identification number and the applicant’s personal information are entered, the
system takes the applicant to the IRS FSA-D application. The FSA-D application asks the
applicant for additional personal data and allows the applicant to revise certain information, such
as their address, to ensure the information entered into the FSA-D matches the information on
the tax return previously filed with the IRS. The FSA-D uses personal data input to verify that
the applicant is the taxpayer. After the system authenticates the taxpayer, the tax return
information for the requested tax year is retrieved and displayed. While the tax return
information is displayed on the computer screen, the applicant’s options include 1) closing the

1
    An applicant can be the student, the student’s spouse, or the parents of the student.
2
    The Department of Education web site may be accessed at fafsa.ed.gov.
                                                                                                           Page 1
                          The Federal Student Aid Datashare Application
                         Was Successfully Deployed, but Improvements in
                          Systems Development Disciplines Are Needed



IRS session without accepting the tax data from the IRS, 2) transferring the tax return data
directly into the application, or 3) printing the tax return data.
This review was requested by the Associate Chief Information Officer for Applications
Development and performed at the Modernization and Information Technology Services
organization facilities in New Carrollton, Maryland, during the period July 2009 through
March 2010. During our audit, we participated in meetings and briefings between IRS
executives and the project team. As a result, when issues and concerns were identified, they
were immediately documented and reported to management along with audit recommendations
for corrective actions. During the audit, management implemented many of the
recommendations prior to deploying the FSA-D application; therefore, project changes or
progress occurring after system deployment may not be included in the audit analyses.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                               Page 2
                                The Federal Student Aid Datashare Application
                               Was Successfully Deployed, but Improvements in
                                Systems Development Disciplines Are Needed




                                        Results of Review

The Federal Student Aid Datashare Application Was Successfully
Developed and Deployed
The IRS successfully developed and deployed the FSA-D application. The IRS project team
began working in May 2009 and, with the assistance of a contractor, deployed the system
9 months later on January 28, 2010. According to the May 2010 IRS report, more than
264,750 taxpayers have used the FSA-D to automatically transfer their tax return information to
the Federal student aid application form. Currently, the FSA-D application allows users to
access only their filed 2008 tax returns in order to complete the application form. However, the
2009 tax returns are scheduled to be available to taxpayers in the next phase of the FSA-D
application, which is planned for implementation in September 2010. The IRS staff has already
initiated development of the next phase.
The IRS convened a project team composed of personnel from the Modernization and
Information Technology Services organization and the Wage and Investment Division. Under
the leadership of the FSA-D project manager, weekly meetings were convened with the project
team, and development activities, including risks, were constantly coordinated and solutions
were jointly developed and promptly implemented. During weekly project team meetings, the
group discussed activities on the FSA-D project schedule and made adjustments as necessary to
ensure the project remained on schedule.
The FSA-D project team held a series of weekly, biweekly, and monthly meetings to brief IRS
executives. The executives participating in the briefings included the Chief Technology Officer,
the Associate Chief Information Officer for Applications Development, and the Wage and
Investment Division Business Modernization Executive. In addition, the Customer Services
Executive Steering Committee provided high-level executive oversight for the FSA-D project.
As required by the Enterprise Life Cycle (ELC), 3 the FSA-D project was subject to several tests
before it was deployed. The tests completed included integration tests performed by the
Department of Education staff and security tests performed by the IRS. The National Institute of
Standards and Technology provides guidelines for selecting and specifying security controls for
Federal information systems and organizations. Security controls are the safeguards employed
within an information system to protect the confidentiality, integrity, and availability of the
system and its information. Our analysis determined the IRS included the required security
controls in its test plan and test cases. According to the test results, security controls were

3
    See Appendix V for a glossary of terms.
                                                                                          Page 3
                              The Federal Student Aid Datashare Application
                             Was Successfully Deployed, but Improvements in
                              Systems Development Disciplines Are Needed



implemented correctly and working as intended, and weaknesses identified during testing have
been included in corrective action plans. 4 Following the security testing, the Wage and
Investment Division Business Modernization Executive approved the system to operate in the
IRS environment.

Improvements Are Needed in Several Systems Development
Disciplines
While the IRS successfully developed and deployed the FSA-D application to assist the
Department of Education to more efficiently serve thousands of applicants for Federal student
aid, improvements are needed in several systems development processes.
    •   Managing requirements – The FSA-D test team did not follow effective requirements
        management processes. Specifically, the Requirements Traceability Matrix (traceability
        matrix) and test cases were not sufficiently developed throughout the planning and
        completion of testing.
    •   Recording test results – Test results were not recorded timely and consistently, nor were
        they recorded in a manner to minimize the potential for manipulation.
    •   Documenting project team meetings – During project development activities, the results
        of project team meetings were not documented for several weeks.
The FSA-D project manager implemented corrective actions immediately after being advised of
many of these concerns. However, additional actions need to be taken in order for the
Chief Technology Officer to improve systems development processes.

Requirements management procedures were not effectively followed throughout
planning and completion of testing
Requirements management is the process by which information technology project requirements
of all types are defined, formalized, managed, controlled, and verified. The requirements
documentation 5 and the traceability matrix are two of the primary controls used to document,
manage, and effectively trace requirements to test cases. The requirements documents, the
traceability matrix, and the test cases should be developed before initiation of testing activities.
The traceability matrix should be updated when changes occur and then accurately maintained
throughout the requirements management and testing processes.


4
  When vulnerabilities are identified during security testing, system owners are required to develop mitigation
Plans of Action and Milestones and monitor the corrective actions until they are completed.
5
  The functional requirements for the FSA-D project were included in three separate documents: the Requirement
Specification Document, the Page Behavior Design Documents, and the Wireframes. These three documents
describe the functionality or operation of the FSA-D system.
                                                                                                         Page 4
                            The Federal Student Aid Datashare Application
                           Was Successfully Deployed, but Improvements in
                            Systems Development Disciplines Are Needed



The traceability matrix and the Systems Acceptability Test (SAT) cases were not sufficiently
developed. The following are specific concerns identified during the audit:
   •    Prior to the SAT, an analysis of the first 25 test cases was performed to determine the
        accuracy and reliability of the traceability matrix. Due to insufficient details on the
        traceability matrix, requirements could not be traced from the 25 test cases to the matrix.
        For example, the traceability matrix should contain a reference number which uniquely
        identifies each requirement being tested; however, 17 of the 25 test cases had a
        requirement reference number that was not included on the traceability matrix.
   •    In a comparison of the traceability matrix to 38 additional test cases performed during the
        SAT, 110 discrepancies existed between the requirement details on the traceability matrix
        and the 38 test cases. Figure 1 provides further information on the discrepancies.
       Figure 1: Discrepancies Between the Traceability Matrix and Test Cases
                                                  Number of Discrepancies Between the
               Traceability Matrix                Traceability Matrix Categories and the
                  Categories                      Information on the 38 SAT Test Cases
         Requirement Specification
                                                                    1
         Document Version Number
         Requirement Specification
         Document Requirement                                      27
         Identification Number
         Page Behavior Design
                                                                   17
         Document Version Number
         Page Behavior Design
         Requirement Identification                                28
         Number
         Wireframe Document Version
                                                                   12
         Number
         Wireframe Number                                          14
         Requirement Description                                   11
         Total Number of
                                                                   110
         Discrepancies Identified
        Source: The requirements documentation and test cases.

   •    Following finalization of the SAT, an accurate total of SAT test cases could not be
        determined. Specifically, three sources reported conflicting numbers as to the total
        number of SAT test cases performed. The Document Management for Information
        Technology (DocIT) web site, a central repository used by the IRS to store documents,
        showed 486 cases; the SAT End-of-Test Status Report showed 484 cases; and the

                                                                                             Page 5
                            The Federal Student Aid Datashare Application
                           Was Successfully Deployed, but Improvements in
                            Systems Development Disciplines Are Needed



          Functional Configuration Audit report showed 422 cases. The reporting of inconsistent
          final test results contributes to unreliable management information and could lead to
          incorrect decisions by IRS management. During our review, we recommended that the
          project manager determine the correct number of final SAT test cases and revise the
          End-of-Test Status Report to accurately reflect the final total. The SAT test manager
          concluded there were 472 final test cases, and the End-of-Test Status Report was revised
          to show these 472 cases. 6
The aggressive time period and limited time schedule required to implement the FSA-D project
contributed to discrepancies between the traceability matrix and SAT test cases.
      •   An effective requirements management process was not established. Specifically, the
          Test, Assurance, and Documentation office test team performed the SAT without initially
          developing a reliable traceability matrix and sufficiently completing all the test cases.
      •   The SAT team concurrently developed test cases and prepared the traceability matrix.
          However, as changes occurred to requirements and test cases, the traceability matrix was
          not always updated to reflect the changes. The SAT test manager stated this occurred due
          to the amount of revisions to requirements documentation. Specifically, the manager
          believed it was not possible to completely update and cross-reference the traceability
          matrix for each revision to the requirement documents and also complete the test
          execution within the required time period.
      •   The test analysts individually and manually prepared extensive test cases, possibly
          causing the development of unnecessary or overlapping test cases. For instance, the test
          manager determined that four test cases were waived because their conditions were
          covered by other tests, and nine were duplicates of existing cases.
When there are several sources that report conflicting requirements and test case data, the
potential exists that not all requirements were tested, the IRS cannot ensure that the system is
working as intended, and the unreliable final test case data could lead to incorrect management
decisions.
Management Action: During the review, we discussed the discrepancies between the
traceability matrix and the SAT test cases with the project manager and recommended a
thorough quality review of the traceability matrix, the requirements documentation, and the
SAT test cases prior to deploying the project in January 2010 to ensure that all requirements are
included in the test cases and tested during the SAT. The project manager agreed and provided
information supporting that the quality review was completed and the requirements tested prior
to deployment of the project.



6
    See Appendix IV.
                                                                                             Page 6
                             The Federal Student Aid Datashare Application
                            Was Successfully Deployed, but Improvements in
                             Systems Development Disciplines Are Needed



Recommendation
Recommendation 1: The Chief Technology Officer should ensure that the Test, Assurance,
and Documentation office SAT test team uses consistent, documented processes to generate a
traceability matrix linking each requirement to a test case.
        Management’s Response: The IRS agreed with this recommendation. The
        Associate Chief Information Officer for Applications Development plans to revise the
        Requirements Traceability Verification Matrix contained in Internal Revenue Manual
        Part 2.6.1 to include hyperlinks that will connect directly to the associated test cases.

The SAT test analysts did not record results timely and consistently
During an observation of 3 testers performing 38 of 472 SAT test cases, we determined that not
all test results were recorded consistently and timely. For example, one of the testers properly
documented testing by immediately recording final results on test case printouts and completing
a followup edit at the conclusion of each test day. The other testers recorded their test results
inconsistently during test performance by either manually transcribing test notes into electronic
test cases at the end of each test day or creating test notes based on memory and only at the end
of each test week.
When test results are not recorded until testing is complete, a risk exists that test results may not
be recorded accurately or at all. The Modernization and Information Technology Services
organization has procedures 7 applicable to Systems Integration Testing that contain several
guidelines for properly recording test results. Two such requirements include recording test
results during actual test execution and subsequently verifying the results by saving computer
screen images immediately after each test. In addition, while the tests are being performed, the
test manager should verify the results to ensure that objectives are achieved and sufficiently
documented. The tester should also ensure all test result documentation is maintained in a test
folder and available for verification by the test manager. After verification, both the testers and
project managers are required to sign the test results certification form, which documents tests
were performed as required.
This situation occurred because the Test, Assurance, and Documentation office SAT test team
does not have any formal procedures that require prompt recording of test results. The test team
followed Internal Revenue Manual Part 2.6.1, Test, Assurance, and Documentation Standards
and Procedures, which does not include detailed procedures requiring SAT testers to record test
results consistently, accurately, and timely during test execution.




7
 Modernization and Information Technology Services organization procedure entitled “Test Folders and Records
Procedure,” dated November 30, 2006.
                                                                                                       Page 7
                                 The Federal Student Aid Datashare Application
                                Was Successfully Deployed, but Improvements in
                                 Systems Development Disciplines Are Needed



Management Action: We discussed the inconsistent recording of test results with the
SAT test manager, who then met with the test team and advised them of the expectation that they
record test results consistently and promptly. The SAT test manager also agreed to review
existing Modernization and Information Technology Services organization procedures for
recording test results and implementing appropriate processes.

Recommendation
Recommendation 2: The Chief Technology Officer should update Internal Revenue Manual
Part 2.6.1, Test, Assurance, and Documentation Standards and Procedures, to state that SAT test
results will be consistently recorded, documented, and verified during test execution.
           Management’s Response: The IRS agreed with this recommendation. The
           Associate Chief Information Officer for Applications Development plans to update the
           Test Results Section of Internal Revenue Manual Part 2.6.1 to require consistent
           recording, documentation, and verification of test results during execution.

The Application Qualification Testing results were not protected from revisions
The FSA-D contractor 8 did not have adequate internal procedures and controls over the
recording and reporting of Application Qualification Testing results. The contractor’s testers
kept track of the test cases they completed along with notes on their test results in an Excel
spreadsheet file. At the end of the testers’ day, another contractor employee accessed the Excel
results file and converted the file to a Portable Document Format. This same employee then
uploaded the Portable Document Format results file to the IRS DocIT web site. The contractor’s
existing processes could allow for manipulation and changing of Application Qualification
Testing results prior to the results being converted to the Portable Document Format file and
uploaded to the IRS DocIT web site.
Established processes should ensure that all project testing results provide objective and unedited
evidence that the project satisfies the agreed-upon requirements. As a result, procedures should
be in place to ensure the results are safeguarded from potential alterations or any changes that
could compromise the test results. Best practices for good internal controls require the
segregation of certain key duties. In this instance, responsibilities for recording and reporting
test results should be separated.
Management Action: This concern was discussed with the project manager and we
recommended that the actual testers for the Application Qualification Testing be responsible for
converting their Excel results to “read only” Portable Document Format files before the
documents are accessed by other employees and uploaded to the IRS DocIT web site. The


8
    The IRS contracted with a vendor to conduct the Application Qualification Testing.
                                                                                            Page 8
                          The Federal Student Aid Datashare Application
                         Was Successfully Deployed, but Improvements in
                          Systems Development Disciplines Are Needed



FSA-D project manager agreed and worked with the contractor to require the testers convert their
test results to a “read only” Portable Document Format file at the end of testing each day.

Minutes were not being prepared to capture and track the details of weekly
project meetings
The ELC requires details and decisions be documented on important project matters. According
to project management best practices, formal minutes should be prepared to document decisions
made during project meetings. This ensures important project decisions and significant issues, as
well as any results from followup action items, are appropriately documented. Details and
decisions made during weekly FSA-D project meetings were not always recorded. After the
FSA-D project was implemented, the project team continued for a month without documenting
results of details and decisions that occurred during weekly team meetings.
The FSA-D project team did not follow project management best practices. When minutes are
not prepared to document significant decisions and followup action items, the potential exists for
important project actions to not receive tracking to ensure sufficient and timely completion.
Management Action: After the initial first few weeks of project meetings and discussions in
which the Treasury Inspector General for Tax Administration participated, this issue was
discussed with the FSA-D project manager who immediately required the preparation of minutes
at the next project team meeting. Thereafter, all FSA-D meeting minutes were adequately
prepared and complete results were documented.




                                                                                           Page 9
                                The Federal Student Aid Datashare Application
                               Was Successfully Deployed, but Improvements in
                                Systems Development Disciplines Are Needed



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of our review was to determine whether the IRS followed the ELC 1 to
develop the FSA-D project within the established time period and to ensure adequate security
was in place to protect taxpayer information.
To accomplish the overall objective, we:
I.         Determined whether ELC guidelines were properly followed in the development of the
           FSA-D project.
           A. Determined if program management processes were used to manage and guide
              project activities.
               1. Obtained and reviewed documentation which provided evidence that the project
                  followed ELC guidance, such as the project charter, the project management plan,
                  the tailoring plan, and customer technical reviews.
               2. Determined and documented how the project team gathered and managed
                  requirements that included verifying with stakeholders that the requirements were
                  complete, tracking and controlling changes to requirements, and ensuring that
                  each requirement was included in a test case.
               3. Determined and documented the risk management process to ensure all issues and
                  risks were properly identified and tracked from inception to mitigation or
                  resolution.
           B. Determined whether the project team performed effective oversight and monitoring of
              the project.
               1. Regularly attended or called into the project team meetings, such as briefings of
                  the Project Director, meetings of the executive steering committee, walkthroughs
                  of the FSA-D project, meetings with stakeholders, risk management meetings,
                  and meetings of the project team.
               2. Obtained and reviewed documents from the project meetings in Step I.B.1.




1
    See Appendix V for a glossary of terms.
                                                                                            Page 10
                          The Federal Student Aid Datashare Application
                         Was Successfully Deployed, but Improvements in
                          Systems Development Disciplines Are Needed



II.    Determined whether the project team adequately planned for and managed testing
       activities.
       A. Compared the traceability matrix, the Requirements Specification Document, and the
          applicable test cases to ensure that each requirement was included in a test case.
           1. Judgmentally selected and compared the first 25 of the 472 total population of
              SAT test cases to the traceability matrix. We used a judgmental sample because
              we were not planning to project our results.
           2. Judgmentally selected and compared an additional 38 of the 472 SAT test cases to
              the traceability matrix. We used a judgmental sample because we were not
              planning to project our results.
       B. Conducted onsite observations of the SAT and the security tests to verify that results
          were accurately recorded.
           1. Observed the testing and the recording of results for 38 of the 472 total population
              of SAT test cases.
           2. Observed the testing and recording of results for 28 of the 486 total population of
              security test cases.
       C. Obtained and reviewed the final results to ensure problems during Application
          Qualification Testing, Security Test and Evaluation, performance, integration, and
          SAT testing were resolved, including retesting failed requirements and properly
          handling defects.
       D. Determined whether the ELC guidelines and other applicable security guidelines were
          followed to ensure authenticated taxpayers have secure access to their tax return
          information.
           1. Obtained and reviewed the security results contained in the Security Certification
              and Accreditation Package.
           2. Determined how the project team resolved the authentication risk.
III.   Obtained and reviewed the Reimbursable Agreement between the IRS and the
       Department of Education to determine the funding source for the FSA-D project.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: ELC and related IRS guidelines, and the

                                                                                          Page 11
                          The Federal Student Aid Datashare Application
                         Was Successfully Deployed, but Improvements in
                          Systems Development Disciplines Are Needed



processes followed in the development of information technology projects. We evaluated these
controls by reviewing the guidelines, conducting interviews and meetings with management and
staff, and reviewing project documentation such as the project charter, various project plans, and
test case files which provided evidence of whether ELC systems development processes were
followed.




                                                                                          Page 12
                         The Federal Student Aid Datashare Application
                        Was Successfully Deployed, but Improvements in
                         Systems Development Disciplines Are Needed



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Scott A. Macfarlane, Director
Kimberly R. Parmley, Audit Manager
Wallace C. Sims, Lead Auditor
Louis Lee, Senior Auditor
Suzanne M. Westcott, Senior Auditor
David F. Allen, Program Analyst




                                                                                     Page 13
                       The Federal Student Aid Datashare Application
                      Was Successfully Deployed, but Improvements in
                       Systems Development Disciplines Are Needed



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Chief Information Officer OS:CTO:CIO
Associate Chief Information Officer, Applications Development OS:CTO:AD
Director, Risk Management OS:CTO:SP:RM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Wage and Investment Division SE:W
       Director, Program Oversight OS:CTO:SP:RDM:PO




                                                                                Page 14
                          The Federal Student Aid Datashare Application
                         Was Successfully Deployed, but Improvements in
                          Systems Development Disciplines Are Needed



                                                                                  Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; the final number of SAT test cases reported was 472 (see
    page 4).

Methodology Used to Measure the Reported Benefit:
The IRS issued the SAT End-of-Test Status Report containing a total of 484 test cases, while
486 actual SAT test cases were placed on the IRS DocIT web site. Reporting different SAT
testing results on multiple sources could lead to incorrect management decisions. We
recommended that the IRS determine the correct number of final test cases and revise the
End-of-Test Status Report to accurately reflect the final total of test cases. The IRS agreed with
our recommendation and determined the final total of SAT test cases is 472. Also, the
End-of-Test Status Report has been revised to show the correct final total of SAT test cases.




                                                                                           Page 15
                    The Federal Student Aid Datashare Application
                   Was Successfully Deployed, but Improvements in
                    Systems Development Disciplines Are Needed



                                                                     Appendix V

                         Glossary of Terms

                 Term                                 Definition
Application Qualification Testing    The testing phase focused on ensuring the
                                     system is functioning as designed and it
                                     includes business and design
                                     requirements, data validation, hyperlinks,
                                     and interface compatibility.
Enterprise Life Cycle                A structured business systems
                                     development method that requires the
                                     preparation of specific work products
                                     during different phases of the
                                     development process. The ELC
                                     establishes a set of repeatable processes
                                     and a system of reviews, checkpoints, and
                                     milestones that reduce the risks of systems
                                     development and ensure alignment with
                                     the overall business strategy.
Functional Configuration Audit       The audit performed by IRS staff to
                                     independently verify whether or not the
                                     system contains the functions expected.
                                     This is usually accomplished by tracing
                                     requirements to test scripts and
                                     determining whether testing adequately
                                     exercised the system’s intended function.
Requirement                          A formalization of a need and the
                                     statement of a capability or condition that
                                     a system, subsystem, or system
                                     component must have or meet to satisfy a
                                     contract, standard, or specification.




                                                                             Page 16
                   The Federal Student Aid Datashare Application
                  Was Successfully Deployed, but Improvements in
                   Systems Development Disciplines Are Needed



                 Term                                 Definition
Requirements Traceability Matrix     A matrix developed and continually
                                     updated that links each requirement to a
                                     test case. The matrix provides important
                                     information on system testing and
                                     functionality status.
Systems Acceptability Testing        The process of testing a system or
                                     program to ensure it meets the original
                                     objectives outlined by the user in the
                                     requirement analysis document.
Systems Integration Testing          Systems Integration Testing verifies that
                                     each individual work product
                                     (i.e., application software, technical
                                     infrastructure, facility, documentation, or
                                     training material) still meets requirements
                                     when integrated with the rest of the
                                     release and the business system.
Test, Assurance, and Documentation   The IRS office responsible for planning,
Office                               developing, scheduling, and conducting
                                     the SAT on selected systems. This
                                     includes providing an environment for
                                     testing and integrating modernization and
                                     production systems that emulate the target
                                     environment. They also test the
                                     acceptability of application software for
                                     implementation ensuring only approved
                                     and controlled versions of software are
                                     deployed.
Traceability                         The activity that maps requirements to
                                     business processes, systems development
                                     documents, and test cases.




                                                                               Page 17
         The Federal Student Aid Datashare Application
        Was Successfully Deployed, but Improvements in
         Systems Development Disciplines Are Needed



                                                 Appendix VI

Management’s Response to the Draft Report




                                                         Page 18
 The Federal Student Aid Datashare Application
Was Successfully Deployed, but Improvements in
 Systems Development Disciplines Are Needed




                                                 Page 19
